1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
TINA CATES,

No. 18-17026

Plaintiff-Appellant,
V.

BRUCE D. STROUD; BRIAN WILLIAMS, SR.; JAMES DZURENDA;
ARTHUR EMLING, JR.; MYRA
LAURIAN,

D.C. No.
2:17-cv-01080GMN-PAL
OPINION

Defendants-Appellees.
Appeal from the United States District Court
for the District of Nevada
Gloria M. Navarro, District Judge, Presiding
Argued and Submitted May 29, 2020
San Francisco, California
Filed September 25, 2020
Before: William A. Fletcher, Jay S. Bybee, and
Paul J. Watford, Circuit Judges.
Opinion by Judge W. Fletcher

2a

COUNSEL
Travis Barrick (argued), Gallian Welker Beckstrom,
Las Vegas, Nevada, for Plaintiff-Appellant.
D. Randall Gilmer (argued), Chief Deputy Attorney
General; Frank A. Toddre II, Senior Deputy Attorney
General; Aaron D. Ford, Attorney General; Ofﬁce of the
Attorney General, Las Vegas, Nevada; for DefendantsAppellees.
OPINION
W. FLETCHER, Circuit Judge:
On February 19, 2017, Tina Cates went to visit her
boyfriend, Daniel Gonzales, who was incarcerated at
High Desert State Prison in Nevada. Prison ofﬁcials
believed Cates intended to smuggle drugs to Gonzales.
A female ofﬁcer took Cates to a bathroom and instructed her to disrobe and remove her tampon. Cates
complied, believing that she had no choice, and the
officer performed a visual body cavity strip search.
Another ofﬁcer searched her car. He asked permission
to search the contents of Cates’s phone, and Cates refused to grant permission. No contraband was found.
Cates was not allowed to visit Gonzales, and her visiting privileges at the prison were terminated. Cates
brought suit against several prison officials under 42
U.S.C. §1983. The district court granted summary
judgment to all defendants.

3a
We hold that the defendant who performed the
strip search violated Cates’s rights under the Fourth
Amendment, but that the defendant is protected by
qualiﬁed immunity.
I.

Background

Because this case comes before the panel on an appeal of a grant of summary judgment for defendants,
we draw all reasonable factual inferences in favor of
Cates. Tolan v. Cotton, 572 U.S. 650, 656–57 (2014). We
recount the facts viewed through that lens.
At the time of the episode in question, Cates had
been dating Gonzales for almost three years. She had
known him for almost twenty years. Gonzales had been
incarcerated at High Desert State Prison (“HDSP”)
since sometime in 2015 or early 2016. Cates submitted
an application to visit Gonzales, which was approved
in approximately August or September of 2016. After
that approval, Cates visited Gonzales weekly.
On February 19, 2017, Cates arrived at HDSP
around 11:30 a.m. for her regular visit. Signs on the
premises of the prison alerted visitors that all persons
and vehicles on the property were subject to search. As
she had done at the beginning of every previous visit,
Cates signed a consent form reading:
I, the undersigned, being free from coercion,
duress, threats or force of any kind, do hereby
freely and voluntarily consent to the search of
my person, vehicle and other property which I
have brought onto prison grounds. I agree

4a
that the search maybe [sic] conducted by duly
authorized Correctional Ofﬁcers of the Department of Corrections or by other law enforcement ofﬁcers speciﬁcally authorized by
the Warden. I understand that if I do not
consent to the search of my person, vehicle or
other property, I will be denied visitation on
this date and may also be denied future visits
pursuant to Administrative Regulation 719.
Unbeknownst to her, an investigation of Cates
had been initiated by a non-party correctional ofﬁcer
of HDSP. Defendant Arthur Emling, Jr., a criminal investigator with the Nevada Ofﬁce of the Inspector General, stated in his deposition that the investigation was
prompted by a tip received from “two conﬁdential credible sources” that Cates might try to bring drugs into
the prison. Other than Emling’s statement, the record
contains no information about the origin or reliability
of the tip.
On the day of Cates’s visit, Emling had applied for
and received a warrant to search Cates’s “person,” to
search “any vehicles used and registered by Cates to
transport herself to High Desert State Prison,” and to
seize “[a]ny and all [i]llegal [c]ontrolled [s]ubstances/
[n]arcotics.” The warrant did not speciﬁcally authorize
a visual body cavity strip search of Cates’s “person.”
The warrant was never executed. Defendants do not
argue to us that, even if executed, the search warrant
authorized a strip search.
After Cates signed the consent form, Emling
and Myra Laurian (“Laurian”), a female criminal

5a
investigator for the Ofﬁce of the Inspector General, approached Cates, conﬁrmed her identity, and told her,
without explanation, to follow them. Cates believed
that Emling and Laurian were “cops” or prison ofﬁcials, and that she was in their custody. Cates did not
feel free to leave. She stated in her deposition that neither Emling nor Laurian informed her that she was
free to leave. Emling and Laurian led Cates to the
prison administration building.
Laurian took Cates into a bathroom. Laurian told
her to remove her clothing, including her bra and underwear, and to remove her tampon. According to
Cates, Laurian “ordered [ ], and didn’t ask” her to bend
over and spread her cheeks. Cates complied. She stated
in her deposition, “I didn’t know if I could [object]. I
don’t know what the laws are. I was complying to an
authority.” Laurian found no drugs or other contraband on Cates’s person. Despite her prior assurances
that she would do so, Laurian did not supply a replacement tampon. Rather, she provided, in Cates’s words,
“toilet paper to shove down there.”
Cates stated in her deposition that she did not consent to the strip search. Rather, she stated that, in
signing the consent form she had signed on every prior
visit to the prison, she understood that she was consenting only to a “normal search.” She understood that
she had consented to “[a] search that is a pat-down
that they normally do when you go through the
prison.”

6a
Cates stated that after the strip search Emling
told Laurian, “I need you to watch [Cates] while I go
search her car.” Emling stated in his deposition that
“Cates was not detained,” and “could leave at any
time.” However, defendants acknowledge in their brief
to our court that “Cates was detained in HDSP administration during the search” of her car. While Laurian
detained Cates, Emling took Cates’s car keys from a
locker and searched her car. Emling found no drugs or
other contraband in Cates’s car.
Emling took Cates’s phone out of her car and
asked for permission to search its contents. Emling
then told Cates for the ﬁrst time that he had a search
warrant. He told her that the warrant did not authorize a search of her phone. Cates denied permission to
search the contents of her phone. She stated in her deposition that she denied permission because of the personal nature of some of the photographs in her phone.
After Cates refused the search of her phone, prison
ofﬁcials terminated her visit to the prison. Cates left
HDSP and drove home. On the way home, she bled
through her clothes. Cates did not stop on the way
home to buy another tampon because, she stated, “I
just wanted to get home and clean myself up and – like,
I felt violated. And the fastest thing I wanted to is just
get home and – it’s an embarrassing thing for a female.
You just want to go clean yourself up. It’s gross.”
On her way home, Cates spoke to Gonzales on the
phone. Because Gonzales was incarcerated, the call
was recorded. Cates told Gonzales what happened and

7a
said that she “fe[lt] violated.” Cates told Gonzales that
“I told her that she could because, I mean, I’m not
bringing drugs in, you know what I mean.”
Cates stated in her deposition that the search at
HDSP “traumatized me. . . . I’ve never experienced anything like that in my life. . . . I’m still in shock over it.”
She stated that she rushed home to clean “[t]he blood,
and the violation that I felt from the – having to take
my clothes off and spread my cheeks open and all that
for the lady.” Cates stated, “I have a clean record. I take
pride in that. I’m a law-abiding citizen.” Cates took off
work and did not leave her house for several days because, she stated: “I was emotionally messed up in the
head from the situation that I had gone through at the
prison.” Cates also increased the dosage of anxiety
medication that she had previously been prescribed.
II.

NDOC Guidelines

Nevada Department of Corrections (“NDOC”)
guidelines, applicable to both inmates and visitors,
mandate that “[s]earches [ ] be conducted in a manner
that causes the least disruption and affords respect
and privacy for the property or person searched. Staff
will avoid unnecessary force or embarrassment.”
“Whenever practical and where there is no undue risk
to the ofﬁcers or employees conducting the search, the
person or inmate to be searched will remain within
view of the property being searched.”
NDOC provides guidance speciﬁcally regarding
searches of visitors. “Every visitor . . . will be subject to

8a
pat down, frisk and personal property searches and
may be subject to strip searches. Prior to the search,
the visitor will be informed of the type of search to be
performed and of the visitor’s option to refuse to be
searched.” “If the planned search is to be a strip search,
the visitor must give consent in writing to be strip
searched, unless a search warrant has been obtained
and a peace ofﬁcer is present.” “Strip searches may
only be conducted [if ] . . . [t]he person is notiﬁed of the
right to refuse to be searched and gives written approval,” “[t]he search is conducted by two staff members trained in conducting searches and of the same
gender as the person being searched,” and “[t]he search
is conducted in a private area as near the perimeter
entrance as possible.”
III.

Procedural History

Cates alleged nine causes of action against ﬁve different defendants for violation of the First, Fourth,
Eighth, and Fourteenth Amendments of the United
States Constitution. Cates sought damages as well as
injunctive and declaratory relief.
Cates also alleged causes of action under the Nevada state constitution. However, she mentions the Nevada constitution only once in her brief to us, and she
cites no Nevada case. She has therefore waived any
causes of action under the state constitution. See
Brown v. Rawson-Neal Psychiatric Hosp., 840 F.3d
1146, 1148 (9th Cir. 2016).

9a
The district court granted summary judgment to
all defendants on all causes of action.
IV.

Standard of Review

We review a district court’s grant of summary
judgment de novo. See Zetwick v. Cty. of Yolo, 850 F.3d
436, 440 (9th Cir. 2017). “Summary judgment is appropriate when, viewing the evidence in the light most favorable to the nonmoving party, there is no genuine
dispute as to any material fact.” Id. (internal quotation
marks and citation omitted). In other words, a plaintiff
survives a defendant’s motion if she produces “evidence such that a reasonable juror drawing all inferences in [her] favor . . . could return a verdict in [her]
favor.” Id. at 441 (internal quotation marks and citation omitted).
V.
A.

Discussion

Fourth Amendment

Cates’s only viable cause of action is her claim that
the unconsented strip search violated her rights under
the Fourth Amendment. For the reasons that follow, we
hold that the strip search violated the Fourth Amendment. However, we also hold that Laurian, who conducted the strip search, is protected from a damages
suit by qualiﬁed immunity. Because there is little to no
likelihood that Cates might again be subjected to a
strip search under comparable circumstances, prospective declaratory and injunctive relief are unavailable.

10a
Qualiﬁed immunity protects government ofﬁcials
acting in good faith and under the color of state law
from suit under § 1983. Pearson v. Callahan, 555 U.S.
223, 231 (2009). Qualiﬁed immunity bars suits against
government ofﬁcials when either (1) no deprivation of
constitutional rights was alleged or (2) the law dictating that speciﬁc constitutional right was not yet clearly
established. Id. at 236. Courts may begin with either
prong of the analysis. Id.
If a constitutional violation is established, satisfying the ﬁrst prong, the second prong of a qualiﬁed immunity analysis asks whether the law prohibiting the
action was “clearly established” at the time of the incident in question. Id. The function of the inquiry under
the second prong is to ensure that ofﬁcials are subject
to suit only for actions that they knew or should have
known violated the law. Hope v. Pelzer, 536 U.S. 730,
741 (2002). Law is “clearly established” for the purposes of qualiﬁed immunity analysis if “every reasonable ofﬁcial would have understood that what he is
doing violates that right.” Taylor v. Barkes, 135 S. Ct.
2042, 2044 (2015) (internal quotations and citations
omitted). An ofﬁcial can be on notice that his conduct
constitutes a violation of clearly established law even
without a prior case that had “fundamentally similar”
or “materially similar” facts. Hope, 536 U.S. at 741. In
the analysis that follows, we address both prongs.

11a
1.

Fourth Amendment Violation

The Fourth Amendment prohibits unreasonable
searches. U.S. Const. Amend. W; Bell v. Wolﬁsh, 441
U.S. 520, 558 (1979). To determine whether a particular search is unreasonable, the intrusion on the individual’s privacy interests must be balanced against “its
promotion of legitimate governmental interests.” Delaware v. Prouse, 440 U.S. 648, 654 (1979). A prison “is a
unique place fraught with serious security dangers.
Smuggling of money, drugs, weapons, and other contraband is all too common an occurrence.” Bell, 441 U.S.
at 559. In determining whether a prison search is reasonable under the Fourth Amendment, the prison’s
“signiﬁcant and legitimate security interests” must be
balanced against the privacy interests of those who enter, or seek to enter, the prison. Id. at 560.
It is well-established that prisoners do not shed all
constitutional rights at the prison gate, though these
rights may be limited or restricted. See id. at 545–546;
Sandin v. Conner, 515 U.S. 472, 485 (1995); see also
Gerber v. Hickman, 291 F.3d 617, 620 (9th Cir. 2002)
(noting that while “[p]rison walls do not form a barrier
separating prison inmates from the protections of the
Constitution,” “it is also clear that imprisonment carries with it the . . . loss of many signiﬁcant rights” (citations and quotations omitted)). “Prisoners retain
only those rights ‘not inconsistent with their status as
. . . prisoners or with the legitimate penological objectives of the corrections system.’ ” Gerber, 291 F.3d at
620 (citing Hudson v. Palmer, 468 U.S. 517, 523 (1984)
(alterations omitted)).

12a
Like prisoners, prison visitors retain only those
rights that are consistent with the prison’s signiﬁcant
and legitimate security interests. But visitors’ privacy
interests, and their threats to prison security, are distinct from those of inmates and detainees. See, e.g.,
Boren v. Deland, 958 F.2d 987, 988 (10th Cir. 1992);
Daugherty v. Campbell, 935 F.2d 780, 786 (6th Cir.
1991); see also Blackburn v. Snow, 771 F.2d 556, 563
(1st Cir. 1985) (recognizing that “free citizens entering
a prison, as visitors, retain a legitimate expectation of
privacy, albeit one diminished by the exigencies of
prison security”). Any constraints on visitors’ rights
must be “justiﬁed by the considerations underlying our
penal system” and their curtailment necessary to the
institution’s needs. Hudson, 468 U.S. at 524 (internal
citation omitted).
As we have recognized, “[A]son ofﬁcials . . . have a
strong interest in preventing visitors from smuggling
drugs into the prison.” Mendoza v. Blodgett, 960 F.2d
1425, 1433 (9th Cir. 1992). Concerns about smuggling drugs and other contraband, such as weapons,
into the facility may justify a variety of security
screening measures. The nature of permissible screening measures will vary depending on the nature of the
threat. “Courts must consider the scope of the particular intrusion, the manner in which it is conducted, the
justiﬁcation for initiating it, and the place in which it
is conducted.” Bell, 441 U.S. at 559.
While “some quantum of individualized suspicion
is usually a prerequisite to a constitutional search or
seizure,” United States v. Martinez-Fuerte, 428 U.S.

13a
543, 560 (1976), the unique context of the prison facility does not always require individualized suspicion.
Some searches of visitors to “sensitive facilities,” like
courthouses or prisons, require no individualized suspicion provided that the searches are both limited and
necessary. See McMorris v. Alioto, 567 F.2d 897, 899
(9th Cir. 1978). Pat-down searches and metal detector
screenings of visitors may be conducted as a prerequisite to visitation without any individualized suspicion,
given the weighty institutional safety concerns. Such
searches are “relatively inoffensive” and “less intrusive
than alternative methods,” and they may be avoided by
the simple expedient of not visiting the prison. Id. at
900–01.
Visual body cavity searches, such as the search to
which Cates was subjected, are at the other end of the
spectrum. “Strip searches involving the visual exploration of body cavities [are] dehumanizing and humiliating.” Kennedy v. Los Angeles Police Dep’t, 901 F.2d 702,
711 (9th Cir. 1990), abrogated on other grounds by
Hunter v. Bryant, 502 U.S. 224 (1991) (per curiam); see
also Bell, 441 U.S. at 576–77, (Marshall, J., dissenting)
(stating that “body-cavity searches . . . represent one of
the most grievous offenses against personal dignity
and common decency”). “The intrusiveness of a body
cavity search cannot be overstated.” Fuller v. M.G. Jewelry, 950 F.2d 1437, 1445 (9th Cir. 1991) (alteration and
citation omitted). The Fourth Amendment permits
these searches, even of inmates, only in limited circumstances. See Bell, 441 U.S. 520, 558–60 (upholding policy of visual body cavity strip searches of inmates after

14a
contact visits); Florence v. Bd. of Chosen Freeholders of
the Cnty. of Burlington, 566 U.S. 318 (2012) (upholding
similar searches of detainees before they are introduced into the general population of a facility); Bull v.
City and County of San Francisco, 595 F.3d 964 (9th
Cir. 2010) (en banc) (upholding policy of strip searches
of arrestees before introduction into the general jail
population); see also Edgerly v. City and County of San
Francisco, 599 F.3d 946, 957 (9th Cir. 2010) (strip
search of an arrestee never placed in the general jail
population requires reasonable suspicion).
Prisoners may be subjected to visual body cavity
strip searches based on “reasonable suspicion” in order
“to protect prisons and jails from smuggled weapons,
drugs or other contraband which pose a threat to the
safety and security of penal institutions.” Fuller, 950
F.2d at 1447; see also Kennedy, 901 F.2d at 715. However, such searches “are valid only when justiﬁed by
institutional security concerns.” Fuller, 950 F.2d at
1447. In circumstances where they threaten prison security, prison visitors may be strip searched when
based on reasonable and individualized suspicion. See
Burgess v. Lowery, 201 F.3d 942, 945 (7th Cir. 2000)
(recognizing “a long and unbroken series of decisions
by our sister circuits” ﬁnding “strip searches of prison
visitors . . . unconstitutional in the absence of reasonable suspicion that the visitor was carrying contraband”); see, e.g., Blackburn, 771 F.2d at 566–67
(rejecting “appellants’ attempt to impute or casually
transfer to free citizens visiting a prison the same circumscription of rights suffered by inmates”); Calloway

15a
v. Lokey, 948 F.3d 194, 202 (4th Cir. 2020) (stating that
“the standard under the Fourth Amendment for conducting a strip search of a prison visitor—an exceedingly personal invasion of privacy—is whether the
prison ofﬁcials have a reasonable suspicion, based on
particularized and individualized information, that
such a search will uncover contraband on the visitor’s
person on that occasion”).
However, even where there is reasonable suspicion
that a prison visitor is carrying contraband, a strip
search is permissible only if it can be justiﬁed by a legitimate security concern. See Fuller, 950 F.2d at 1447.
That justiﬁcation does not exist when the visitor is not
in a position to introduce contraband into the prison.
For example, there is no legitimate security justiﬁcation when a visitor is still in an administrative building of the prison with no possibility of contact with a
prisoner. Only when a visitor could introduce contraband into the prison is the risk comparable to that
posed by a prisoner who returns to the general prison
environment after contact with a visitor, or a detainee
who is placed with the general prison population after
booking. See Bell, 441 U.S. 520; Florence, 566 U.S. 318.
A critical distinction between a visitor, on the one
hand, and a prisoner or detainee, on the other, is that
a visitor can leave the administrative area of a prison
without ever coming into contact with a prisoner. The
Sixth Circuit relied on this distinction in Spear v.
Sowders, 71 F.3d 626 (6th Cir. 1995) (en banc), to hold
that a prison visitor could be compelled to submit
to a digital body cavity strip search based solely on

16a
reasonable suspicion only if the visitor was given the
opportunity to terminate her visit and depart instead.
Kentucky prison ofﬁcials believed Spear was bringing
drugs to an inmate during her visits. They refused to
allow her into the prison proper, where she would have
had contact with prisoners, and they refused to allow
her to leave the administrative area of the prison without submitting to a body cavity strip search. Id. at
628–29. The search “embarrassed, humiliated, and demeaned her.” Id. at 629. The court held that “the residual privacy interests of visitors in being free from such
an invasive search requires that prison authorities
have at least a reasonable suspicion that the visitor is
bearing contraband before conducting such a search.”
Id. at 630. The court held further that even if there was
reasonable suspicion that Spear was carrying drugs,
she had a “right not to be searched for administrative
reasons without having a chance to refuse the search
and depart.” Id. at 632. The court noted that “the same
logic that dictates that such a search may be conducted
only when there is reasonable suspicion also demands
that the person to be subjected to such an invasive
search be given the opportunity to depart.” Id.
The Seventh Circuit has endorsed the reasoning of
Spear: “[I]f a visitor showed up at the gates of the
prison and was told that anyone who visits an inmate
has to submit to a strip search, and replied that in that
event she would not visit him, the guards would not
seize her and subject her to the strip search anyway—
or if they did, they would be violating the Fourth
Amendment. . . . The visitor thus always had the legal

17a
option of avoiding the strip search by forgoing the
visit.” Burgess, 201 F.3d at 945. See also Stephen v.
MacKinnon, No. CIV.A. 94-3651-B, 1997 WL 426972, at
*6 (Mass. 1997) (ﬁnding “[t]he portion of the search
which occurred after Ms. Stephen expressed her wish
to leave . . . unreasonable and in violation of [her] constitutional right to be free of an unreasonable search”);
Shields v. State, 16 So. 85, 86 (Ala. 1894) (describing
“[t]he examination or search must be voluntary on the
part of [visitors]. If they do not consent, admission to
the jail or access to the prisoners may be refused”).
Using a similar analysis, the Eighth Circuit found
a Fourth Amendment violation when a visitor—who
had already ﬁnished her visit to the jail and was therefore “no longer in a position to smuggle contraband”
and “no longer posed a threat to prison security”—was
subjected to a visual body cavity strip search. Marriott
By and Through Marriott v. Smith, 931 F.2d 517, 518,
520 (8th Cir. 1991). In Hunter v. Auger, 672 F.2d 668,
675 (8th Cir. 1982), the Eighth Circuit had previously
held that visitors may be subjected to strip searches if
there are “reasonable grounds . . . to believe that a particular visitor will attempt to smuggle contraband”
into the prison. The court wrote in Marriott that “[t]he
mere fact that this case and Hunter involved people
who had gone to visit prisoners is a superﬁcial similarity. That similarity does not justify an ofﬁcer relying on
Hunter when the purpose for the Hunter rule does not
exist.” 931 F.2d at 521.
We agree with the Sixth, Seventh and Eighth Circuits. Our agreement with our sister circuits follows

18a
naturally from our precedent on prison searches and
on screening measures in sensitive facilities more generally. In upholding a blanket policy requiring strip
searches of admittees to the county jail in Bull, we speciﬁcally noted that we were not “disturb[ing] our prior
opinions considering searches of arrestees who were
not classiﬁed for housing in the general jail or prison
population.” 595 F.3d at 981. Our rationale in Bull, like
the Supreme Court’s rationale in Bell, 441 U.S. 520,
was based on the jail’s security interests within the
jail. See Bull, 595 F.3d at 981 n.17 (“The strip search
policy at issue in this case, and our holding today, applies only to detainees classiﬁed to enter the general
corrections facility population.” (emphasis added)); see
also Bell, 441 U.S. at 558 (upholding searches of
“[i]nmates at all Bureau of Prison facilities . . . after
every contact visit with a person from outside the institution”). We speciﬁcally noted in Bull that “searches
of arrestees at the place of arrest, searches at the stationhouse prior to booking, and searches pursuant to
an evidentiary investigation must be analyzed under
different principles than those at issue today.” Id. at
981.
Because the ability of prison ofﬁcials to conduct
strip searches of visitors based on reasonable suspicion
is premised on the need to prevent introduction of contraband into the prison, a search of a visitor who no
longer intends to enter the portion of the prison where
contact with a prisoner is possible, or who was leaving
the prison, must rely on another justification. Ordinarily, a visitor cannot introduce contraband into the

19a
prison simply by appearing in the administrative area
of the prison. If prison ofﬁcials have reasonable suspicion that such a visitor is carrying contraband, the
prison’s security needs would justify a strip search
only if the visitor insists on access to a part of the
prison where transfer of contraband to a prisoner
would be possible. If the visitor would prefer to leave
the prison without such access, the prison’s security
needs can be satisﬁed by simply letting the visitor depart.
NDOC’s own guidelines support this analysis. As
we noted above, they provide:
Prior to the search, the visitor will be informed of the type of search to be performed
and of the visitor’s option to refuse to be
searched. If the planned search is to be a strip
search, the visitor must give consent in writing to be strip searched, unless a search warrant has been obtained and a peace ofﬁcer is
present. In the absence of a search warrant,
any person not giving permission to search
upon request will be required to leave the institution/facility grounds.
The guidelines continue: “Strip searches may only be
conducted [when] [t]he person is notified of the right
to refuse to be searched and gives written approval to
be searched per the ‘Consent to Search’ form.” The
NDOC’s guidelines are of course based on the security
needs of the prison. Notably, the guidelines in no way
suggest that it is necessary for institutional security to
conduct a search of a visitor who prefers to leave the

20a
prison rather than subject herself to a strip search.
Prison regulations in many states are similar See,
e.g., Ill. Admin. Code § 2501.220(a)(3) (permitting strip
searches of visitors only if there is “reasonable suspicion that the visitor may be in possession of contraband or be attempting to transport contraband into the
facility” and “[t]he visitor [is] informed that he may refuse to submit to the search . . . and may be denied the
visit unless he speciﬁcally consents in writing to a strip
search”); N.Y. Admin. Code § 200.2(f ) (describing a
“visitor must be informed that he/she has the option to
submit . . . or to refuse”); Miss. Admin. Code Pt. 2, R.
2.1.5(4) (“When any visitor is believed, upon reasonable suspicion, to be carrying contraband, they will be
asked to consent to a strip search and/or body cavity
search.”).
In other circumstances or settings, a refusal to allow someone to depart rather than submit to a search
may be justiﬁed by legitimate security needs. For example, we held in U.S. v. Aukai, 497 F.3d 955, 960 (9th
Cir. 2007) (en banc), that a would-be airplane passenger could be subjected to a pat-down, empty-your-pockets search once he had entered the security area, even
though he expressed a desire to leave rather than be
subjected to the search. We held that a rule allowing
the would-be passenger to depart in such a circumstance would “make[ ] little sense in a post-9/11 world.”
Id. Rather, such a rule
would afford terrorists multiple opportunities
to attempt to penetrate airport security by
`electing not to ﬂy’ on the cusp of detection

21a
until a vulnerable portal is found. This rule
would also allow terrorists a low-cost method
of detecting systematic vulnerabilities in airport security, knowledge that could be extremely valuable in planning future attacks.
Id. at 960–61.
Our decision in Aukai is entirely consistent with a
holding that a prison visitor who does not insist on access to the prison proper must be allowed to leave rather than be subjected to a strip search. First, prisons
are not faced with the same sort of security threats as
airports. Our rationale in Aukai made perfect sense in
the context of airport screening, where a terrorist is
intent on bringing down an airplane—any large passenger airplane—and needs to ﬁnd a soft spot at only
one airport—any significant airport—to do enormous
damage. By contrast, a prison visitor intent on bringing contraband into a prison is typically interested in
bringing contraband to a particular person or group
of people in that prison. Second, the search in Aukai
was not intrusive. The would-be passenger was only
wanded, patted down, and asked to empty his pockets.
An entirely different case would have been presented
in Aukai if an unconsented strip search had been at
issue.
We are aware that in U.S. v. Prevo, 435 F.3d 1343
(11th Cir. 2006), the Eleventh Circuit relied on airport
search cases to reject an argument that a person
should have been allowed to leave a prison parking lot
rather than have her car searched. The court wrote
that an option to leave

22a
would constitute a one-way street for the beneﬁt of a party planning airport mischief, since
there is no guarantee that if he were allowed
to leave he might not return and be more successful. As we observed, established search
procedures are more valuable for what they
discourage than what they discover. Any policy that reduces the likelihood of a successful
search will decrease the risk to the wrongdoer.
A policy allowing the wrongdoer to back out
on the brink of discovery reduces the risk to
zero, leaving her free reign to probe the security measures until an opening is found.
Id. at 1348–49 (citations and alterations omitted). The
Eleventh Circuit’s concerns are not compelling when
applied to an unconsented strip search of a visitor who
would prefer to leave rather than be searched. A strip
search is humiliating and intrusive. Moreover, in Prevo
some prisoners had access to the parking lots at the
prison. See Prevo, 435 F.3d at 1347 (noting that the pistol on the front seat of a visitor’s car would be “accessible to prisoners passing by who were inclined to
wrongdoing,” and concluding that “[a]t least where inmates have access to cars parked in prison facility
parking lots, a search of the vehicle is reasonable”); see
also Neumeyer v. Beard, 421 F.3d 210, 211 (3rd Cir.
2005) (“Notably, some inmates have outside work details and such inmates may have access to visitors’
vehicles parked at the prison.”) (quotation omitted);
McDonell v. Hunter, 809 F.2d 1302, 1309 (8th Cir. 1987)
(ﬁnding “it is not unreasonable to search [employee]

23a
vehicles that are parked within the institution’s conﬁnes where they are accessible to inmates”).
The court in Spear drew a similar distinction between strip searches and vehicle searches. See Spear,
71 F.3d at 633. While holding that Spear should have
been given an opportunity to leave before being subjected to a body cavity strip search based on reasonable
suspicion, the court refused to hold that the search of
her car located on prison grounds was unreasonable. It
noted that “while unpleasant, the nature of an automobile search is far less intrusive than a strip and body
cavity search, and the interest in preventing the introduction of contraband remains as great.” Id.; see also
Romo v. Champion, 46 F.3d 1013, 1019 (10th Cir. 1995)
(stating that a “strip search is a far cry from the routine, rather nonintrusive search initially conducted by
defendants at the roadblock . . . the strip search of an
individual by government officials, regardless how
professionally and courteously conducted, is an embarrassing and humiliating experience”) (quotation
omitted). It further distinguished the two searches
based on the fact that contraband hidden on or inside
a person would only be transferred to a prisoner
through contact with the prisoner while “an object secreted in a car, to which prisoners may have access, is
a potential threat at all times after the car enters the
grounds.” Spear, 71 F.3d at 633.
Even if there was reasonable suspicion that Cates
was seeking to bring drugs into the prison (a question
we do not reach), Laurian violated her rights under the
Fourth Amendment by subjecting her to a strip search

24a
without giving her the option of leaving the prison rather than being subjected to the search.
2.

Qualified Immunity

We have concluded, in agreement with three of our
sister circuits, that Laurian violated Cates’s rights under the Fourth Amendment by subjecting her to a strip
search without giving her an opportunity to leave rather than be subjected to the search. We hold, however,
that prior to our decision in this case the contours of
the right in this circuit were not “sufﬁciently clear
[such] that a reasonable ofﬁcial would understand that
what he is doing violates that right,” and accordingly
extend qualiﬁed immunity. Jessop v. City of Fresno, 936
F.3d 937, 940–41 (9th Cir. 2019) (en banc) (quoting Anderson v. Creighton, 483 U.S. 635, 640 (1987)).
The Supreme Court and our court have addressed
strip searches of detainees. But when Cates was subject to the strip search at issue in this case, there was
no case in this circuit where we had held that a prison
visitor has a right to leave the prison rather than undergo a strip search conducted on the basis of reasonable suspicion. While we “do not require a case directly
on point, . . . existing precedent must have placed the
. . . question beyond debate.” Al-Kidd, 563 U.S. at 741.
Cases allowing strip searches of detainees support a
holding that Cates’s rights under the Fourth Amendment were violated primarily based on their differences from, rather than their similarities to, Cates’s
case. Additionally, while “in a sufﬁciently ‘obvious’ case

25a
of constitutional misconduct, we do not require a precise factual analogue in our judicial precedents,” we
have noted that this “exception . . . is especially problematic in the Fourth-Amendment context” where ofﬁcers are confronted with “endless permutations of
outcomes and responses.” Sharp v. County of Orange,
871 F.3d 901, 911–12 (9th Cir. 2017).
Existing case law has already clearly established
that a strip search of a prison visitor conducted without reasonable suspicion is unconstitutional. We do not
reach the question whether there actually was reasonable suspicion that Cates was carrying drugs on her
person. But, for purposes of a qualiﬁed immunity analysis, it was not unreasonable for Laurian to have believed that there was reasonable suspicion, given that
a search warrant (though unexecuted) had been issued
for a search of Cates’s “person” for drugs. However,
prior to our decision in this case, there has been no controlling precedent in this circuit, or a sufﬁciently robust consensus of persuasive authority in other
circuits, holding that prior to a strip search a prison
visitor—even a visitor as to whom there is reasonable
suspicion—must be given an opportunity to leave the
prison rather than be subjected to the strip search.
B.

Other Causes of Action

We hold that Cates’s other alleged causes of action
all fail. Cates alleges two additional Fourth Amendment causes of action: that Emling and Laurian violated the Fourth Amendment when they detained her

26a
while searching her car, and again when they took her
phone. Neither allegation states a constitutional violation. Some form of temporary detention while they
searched Cates’s car was permissible because ofﬁcers’
“authority to detain incident to a search is categorical.”
Muehler v. Mena, 544 U.S. 93, 98 (2005). Cates’s detention during the search of her car lasted for only a few
minutes and did not involve serious physical restriction. The brief moment when Defendant Emling
was holding Cates’s phone and asking her for the
passcode (which Cates refused to provide) did not
“meaningful[ly] interfere[ ] with [her] possessory interests in” her phone. United States v. Brown, 884 F.2d
1309, 1311 (9th Cir. 1989).
Cates alleges three due process causes of action:
she contends that her due process rights were violated
when (1) Emling and Laurian failed to give her a copy
of the search warrant; (2) a prison ofﬁcial denied her
access to the prison on February 17 without reasoning
or appeal; and (3) other prison ofﬁcials indeﬁnitely suspended her permission to visit the prison. Cates’s ﬁrst
due process cause of action fails because the warrant
was never executed, and she cites no law requiring the
production of an unexecuted warrant. See United
States v. Silva, 247 F.3d 1051, 1058 n.4 (9th Cir. 2001).
Cates also cites no caselaw supporting her second and
third due process causes of action.
Cates alleges other causes of action, including that
(1) “she was retaliated against under the First Amendment” after “she reasonably refused to provide [Emling] the password to her cell phone, something she

27a
had a protected [First] Amendment right to do”; (2) her
Eighth Amendment right to be free from cruel and unusual punishment was violated; and (3) prison ofﬁcials
violated her right to equal protection by terminating
her visitation while not doing the same to other, similarly situated individuals. None of these other causes
of actions has merit.
Conclusion
The unconsented strip search to which Cates was
subjected, without giving her the option of leaving the
prison rather than being subjected to the search, was
unreasonable under the Fourth Amendment. However,
because at the time of the violation Cates did not have
a clearly established Fourth Amendment right to leave
without being subjected to the search, Laurian is entitled to qualiﬁed immunity Cates’s other causes of action fail. We afﬁrm the district court’s award of
summary judgment to defendants.
AFFIRMED.

28a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
TINA CATES,
Plaintiff,
vs.
BRUCE D. STROUD, et al.,
Defendants.

)
Case No.:
)
2:17-cv-01080)
GMN-PAL
)
ORDER
)
) (Filed Sep. 24, 2018)
)

Pending before the Court is Defendants Brian
Williams, Sr.; James Dzurenda; Arthur Emling, Jr.; and
Myra Laurian’s (collectively “Defendants’”) Motion
for Summary Judgment, (ECF No. 25). Plaintiff Tina
Cates (“Plaintiff ”) ﬁled a Response, (ECF No. 27), and
Defendants ﬁled a Reply, (ECF No. 29). For the following reasons, Defendants’ Motion for Summary Judgment is GRANTED.
I.

BACKGROUND

This case arises from Plaintiff ’s visit to High Desert State Prison (“HDSP”) to see inmate Daniel Gonzales on February 19, 2017. (Am. Compl., ECF No. 18).
Prior to February 19, 2017, an investigation of Plaintiff
was initiated by a non-party correctional ofﬁcer of
HDSP because he received information from two confidential credible sources that Plaintiff might bring
drugs or contraband into the prison. (Emling’s Resp. to
Pl.’s Interrog. 4:2–13, Ex. 5 to MSJ, ECF No. 25-5). This

29a
information from the ofﬁcer was passed along to a
criminal investigator for the Ofﬁce of the Inspector
General, Arthur Emling, Jr. (“Emling”), who applied for
a warrant on the basis that he had probable cause to
believe Plaintiff ’s person or vehicles likely contained
illegal controlled substances. (Id. 4:4–6); (Aff. of Search
Warrant at 1, Ex. 4 to Resp., ECF No. 27). On February
19, 2017, a search warrant was issued that authorized
the search of Plaintiff ’s person and any vehicles used
to transport her to HDSP. (See Search and Seizure
Warrant, Ex. 4 to MSJ, ECF No. 25-4). However, the
search warrant was never executed on Plaintiff. (See
Return on Search Warrant, Ex. 6 to Resp., ECF No. 27).
When Plaintiff arrived at HDSP on the morning of
February 19,2017, she signed a form consenting to a
search of her person, vehicle, and other property that
she brought onto prison grounds and was given a
locker to hold her possessions. (Dep. of Plaintiff 21:15–
22:1, Ex. 3 to Mot. Summ. J. (“MSJ”), ECF No. 25-3);
(see Consent to Search Form, Ex. 1 to MSJ, ECF No.
25-1). While Plaintiff was waiting in the prison lobby
Emling and Myra Laurian (“Laurian”) asked her to
step outside of the building. (Dep. of Pl. 22:2–25, Ex. 3
to MSJ). Emling informed Plaintiff there was reason
to believe she was attempting to bring illegal drugs
onto the premises. (Id. 23:5–9, 106:2–3). Subsequently,
Laurian took Plaintiff into the bathroom to perform a
strip search. (Id. 25:2–25). During the strip search,
Plaintiff was asked to remove her tampon and was not
given a replacement. (Id. 27:1–7). Instead, Plaintiff
was provided with toilet paper, and on her drive home

30a
from the prison Plaintiff bled through her clothes. (Id.
27:5–7,39:21–23).
Once the strip search was complete, Emling took
Plaintiff ’s car keys from her locker and conducted a
search of Plaintiff ’s vehicle, located in the prison parking lot, while Plaintiff waited inside with Laurian.
(Id. 43:7–14, 88:1–17). Emling removed Plaintiff ’s cell
phone from her vehicle and asked Plaintiff if he could
search the contents of her phone. (Id. 46:16–21, 47:1–
5). Plaintiff denied his request to search the information on her phone. (Id.). However, Plaintiff did not
revoke her consent provided by the consent to search
form. (Id. 108:16–23).
After Plaintiff denied the request to search her
phone, Emling told Plaintiff that her visitation was being terminated, and Plaintiff was asked to leave the
prison. (Id. 94:8–12). On February 22,2017, Plaintiff
received a letter from the HDSP Associate Warden advising her that her visiting privileges had been suspended indeﬁnitely and she was not permitted to
return to the facility without written request and permission from the Warden. (Nevada Department of Corrections (“NDOC”) Letter, Ex. 7 to Resp., ECF No. 27).
On April 19, 2017, Plaintiff ﬁled her initial Complaint pursuant to 42 U.S.C. § 1983. (Compl., ECF No.
1). On October 26, 2017, Plaintiff ﬁled an Amended
Complaint alleging nine causes of action: (1) Due Process violation pursuant to the Fourteenth Amendment
and Article 1 § 8 of the Nevada Constitution; (2) Cruel
and Unusual Punishment pursuant to the Eighth

31a
Amendment and Article 1 § 6 of the Nevada Constitution; (3) Unreasonable Search and Seizure pursuant to
the Fourth Amendment and Article 1 § 18 of the Nevada Constitution; (4) Unreasonable Search and Seizure pursuant to the Fourth Amendment and Article 1
§ 18 of the Nevada Constitution; (5) Unreasonable
Search and Seizure pursuant to the Fourth Amendment and Article 1 § 18 of the Nevada Constitution; (6)
Retaliation pursuant to the First Amendment and Article 1 § 9 of the Nevada Constitution; (7) Due Process
violation pursuant to the Fourteenth Amendment and
Article 1 § 8 of the Nevada Constitution; (8) Due Process violation pursuant to the Fourteenth Amendment
and Article 1 § 8 of the Nevada Constitution; and (9)
Equal Protection pursuant to the Fourteenth Amendment. (Am. Compl. ¶¶ 50–88).
In the instant Motion Defendants request summary judgment on all nine causes of action on the basis
that “there are no genuine issues of material fact, and
Defendants are entitled to judgment as a matter of
law.” (MSJ 23:3–4, ECF No. 25).
II.

LEGAL STANDARD
A. Summary Judgment

The Federal Rules of Civil Procedure provide for
summary adjudication when the pleadings, depositions, answers to interrogatories, and admissions on
ﬁle, together with the afﬁdavits, if any, show that
“there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”

32a
Fed. R. Civ. P. 56(a). Material facts are those that may
affect the outcome of the case. See Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). A dispute as to a
material fact is genuine if there is sufﬁcient evidence
for a reasonable jury to return a verdict for the nonmoving party. See id. “Summary judgment is inappropriate if reasonable jurors, drawing all inferences in
favor of the nonmoving party, could return a verdict in
the nonmoving party’s favor.” Diaz v. Eagle Produce
Ltd. P’ship, 521 F.3d 1201, 1207 (9th Cir. 2008) (citing
United States v. Shumway, 199 F.3d 1093, 1103–04
(9th Cir. 1999)). A principal purpose of summary judgment is “to isolate and dispose of factually unsupported
claims.” Celotex Corp. v. Catrett, 477 U.S. 317, 323–24
(1986).
In determining summary judgment, a court applies a burden-shifting analysis. “When the party moving for summary judgment would bear the burden of
proof at trial, it must come forward with evidence
which would entitle it to a directed verdict if the evidence went uncontroverted at trial. In such a case, the
moving party has the initial burden of establishing the
absence of a genuine issue of fact on each issue material to its case.” C.A.R. Transp. Brokerage Co. v. Darden
Rests., Inc., 213 F.3d 474, 480 (9th Cir. 2000) (citations
omitted). In contrast, when the nonmoving party bears
the burden of proving the claim or defense, the moving
party can meet its burden in two ways: (1) by presenting evidence to negate an essential element of the nonmoving party’s case; or (2) by demonstrating that the
nonmoving party failed to make a showing sufﬁcient to

33a
establish an element essential to that party’s case on
which that party will bear the burden of proof at trial.
See Celotex Corp., 477 U.S. at 32324. If the moving
party fails to meet its initial burden, summary judgment must be denied and the court need not consider
the nonmoving party’s evidence. See Adickes v. S.H.
Kress & Co., 398 U.S. 144, 159–60 (1970).
If the moving party satisﬁes its initial burden, the
burden then shifts to the opposing party to establish
that a genuine issue of material fact exists. See Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S.
574, 586 (1986). To establish the existence of a factual
dispute, the opposing party need not establish a material issue of fact conclusively in its favor. It is sufﬁcient
that “the claimed factual dispute be shown to require
a jury or judge to resolve the parties’ differing versions
of the truth at trial.” T. W. Elec. Serv., Inc. v. Pac. Elec.
Contractors Ass’n, 809 F.2d 626, 631 (9th Cir. 1987). In
other words, the nonmoving party cannot avoid summary judgment by relying solely on conclusory allegations that are unsupported by factual data. See Taylor
v. List, 880 F.2d 1040, 1045 (9th Cir. 1989). Instead, the
opposition must go beyond the assertions and allegations of the pleadings and set forth speciﬁc facts by producing competent evidence that shows a genuine issue
for trial. See Celotex Corp., 477 U.S. at 324.
At summary judgment, a court’s function is not to
weigh the evidence and determine the truth but to determine whether there is a genuine issue for trial. See
Anderson, 477 U.S. at 249. The evidence of the nonmovant is “to be believed, and all justiﬁable inferences

34a
are to be drawn in his favor.” Id. at 255. But if the evidence of the nonmoving party is merely colorable or is
not signiﬁcantly probative, summary judgment may be
granted. See id. at 249–50.
B. Qualified Immunity
The doctrine of qualiﬁed immunity protects government ofﬁcials “from liability for civil damages insofar as their conduct does not violate clearly established
statutory or constitutional rights of which a reasonable
person would have known.” Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982). In applying the two-part qualified immunity analysis, courts must determine: (1)
whether, taken in the light most favorable to the plaintiff, the defendant’s conduct amounted to a constitutional violation, and (2) whether or not the right was
clearly established at the time of the violation. Bull v.
City & Cty. of San Francisco, 595 F.3d 964, 971 (9th Cir.
2010) (quoting McSherry v. City of Long Beach, 560
F.3d 1125, 1129–30 (9th Cir.2009)). Courts can decide
which of the prongs should be addressed first. Id.
“Where the ofﬁcers’ entitlement to qualiﬁed immunity
depends on the resolution of disputed issues of fact in
their favor, and against the non-moving party, summary judgment is not appropriate.” Wilkins v. City of
Oakland, 350 F.3d 949, 956 (9th Cir. 2003).

35a
III. DISCUSSION
A. Fourth Amendment Claims
1. Third Cause of Action – Search of Plaintiff ’s Person
Plaintiff ’s third cause of action alleges that she
was deprived of her rights against unreasonable
search and seizure when Laurian “made [Plaintiff ] remove her menstrual tampon and then failed to provide
[Plaintiff ] an alternative tampon after witnessing that
[Plaintiff ] was in fact menstruating.” (Am. Compl.
¶ 60, ECF No. 18). Defendants argue that they had verbal and written consent to perform a search of Plaintiff ’s person, a search warrant was obtained to search
Plaintiff and her vehicle, and they had reasonable suspicion to conduct a strip search. (MSJ 5:18–25, 6:1–2,
6:11–12, ECF No. 25). For these reasons, Defendants
assert that “there can be no question that the search of
Plaintiff did not violate the Fourth Amendment . . .
Therefore, there are no genuine issues of material fact
related to Plaintiff ’s Third Cause of Action, and Defendants are entitled to judgment as a matter of law.”
(Id. 8:1–5).
Plaintiff argues that it “cannot be said that [Plaintiff ] consented to the strip search, the search of her
vehicle, or the search of the contents of her phone.”
(Resp. 9:17–18, 9:10, ECF No. 27). Speciﬁcally, Plaintiff
claims that the search exceeded the scope of consent
because she signed a consent to search form that authorized “NDOC ofﬁcials to conduct [a] clothed pat
down type body” search, not a strip search. (Id. 5:5–6).

36a
Additionally, Plaintiff claims Defendants “failed to
comply with the provisions of established prison regulations regarding strip searches and the search of
[Plaintiff ’s] vehicle.” (Id. 9:13–15). Finally, Plaintiff
contends that “Defendants are not entitled to any
protections that may have been afforded them by execution of the search warrant” because “they did not
execute the search warrant in carrying out their
searches of [Plaintiff ].” (Id. 9:2–6).
The Fourth Amendment guarantees freedom from
unreasonable search and seizure. U.S. Const. amend.
IV. The test for unreasonableness “requires a balancing
of the need for the particular search against the invasion of personal rights that the search entails. Courts
must consider the scope of the particular intrusion, the
manner in which it is conducted, the justiﬁcation for
initiating it, and the place in which it is conducted.”
Bell v. Wolﬁsh, 441 U.S. 520, 559 (1979). However, “the
Fourth Amendment does not afford a person seeking to
enter a penal institution the same rights that a person
would have on public streets or in a home.” Spear v.
Sowders, 71 F.3d 626, 629–30 (6th Cir. 1995). “Visitors
can be subjected to some searches, such as a pat-down
or a metal detector sweep, merely as a condition of visitation, absent any suspicion. However, because a strip
and body cavity search is the most intrusive search
possible, courts have attempted to balance the need for
institutional security against the remaining privacy
interests of visitors.” Id. “Although not yet addressed
by the Ninth Circuit in a published opinion, many
other Courts of Appeals have concluded that . . . a

37a
visitor may only be subjected to a strip search if the
search is supported by reasonable suspicion” that
evidence or contraband will be uncovered. O’Con v.
Katavich, No. 1:13-cv-1321-AWI-SKO, 2013 WL 6185212,
at *5 (E.D. Cal. Nov. 26, 2013); see Hunter v. Auger, 672
F.2d 668, 674 (8th Cir. 1982) (applying reasonable suspicion standard for strip searches of prison visitors).
The Court ﬁnds that that there are no material
facts at issue that provide sufﬁcient evidence for a reasonable jury to return a verdict in favor of Plaintiff as
to her third cause of action. In assessing the facts in
the light most favorable to Plaintiff, it appears as
though the scope of the consent to search form extended only to a pat down of Plaintiff ’s outer clothing,
and Plaintiff did not sign a separate consent to search
form related speciﬁcally to a strip search. (Tina Cates
Aff. ¶ 8 at 34, Ex. 1 to Resp., EFC No. 27); (see Consent
to Search Form, Ex. 1 to MSJ, ECF No. 25-1) (“the undersigned . . . freely and voluntarily consents to the
search of my person”); (see also Administrative Regulation (“AR”) 719 ¶ 6(f ), Ex. 2 to Resp., ECF No. 27)
(“visitors shall submit to a search of their person (i.e.,
clothes body search and metal detector inspection));
(see also AR 422.05 at 6, Ex. 3 to Resp., ECF No. 27)
(“Every visitor entering the grounds of an institution/
facility will be subject to pat down, frisk, and personal
property searches and may be subject to strip searches
. . . [for] a strip search, the visitor must give consent in
writing to be strip searched, unless a search warrant
has been obtained and a peace ofﬁcer is present.”).
However, consent is not necessary to perform a strip

38a
search, Defendants only needed reasonable suspicion
that Plaintiff possessed contraband. See Katavich,
2013 WL 6185212, at *5.
Plaintiff does not dispute that Defendants had
reasonable suspicion to perform the strip search. Instead, Plaintiff argues that Defendants violated the
provisions and guidelines of AR 422. However, Defendants’ violations of prison administrative regulations
do not amount to a federal constitutional violation.
See Phillips v. Norris, 320 F.3d 844, 847 (8th Cir. 2003)
(“[T]here is no federal constitutional liberty interest in
having state ofﬁcers follow state law or prison ofﬁcials
follow prison regulations.”); see also Hovater v. Robinson, 1 F.3d 1063, 1068 n. 4 (10th Cir. 1993) (“[A] failure
to adhere to administrative regulations does not
equate to a constitutional violation.”); see also Padilla
v. Nevada, No. 3:07-cv-00442-RAM, 2010 WL 3463617,
at *4 (D. Nev. Aug. 25, 2010), aff ’d sub nom. Padilla v.
Brooks, 540 F. App’x 805 (9th Cir. 2013) (“Although it
may be desirable for a prison to adhere to its own regulations, such adherence is not an independent constitutional mandate. Prison regulations are not a proxy
for the substantive protections conferred under the
U.S. Constitution.”). Because searches of prison visitors must be supported by reasonable suspicion, and
Plaintiff does not dispute that reasonable suspicion
existed, there are no genuine issues for trial on this
claim.
Furthermore, the Court’s ﬁnding is supported by
the search warrant that was issued which states that
there was probable cause for Defendants to believe

39a
that illegal controlled substances would be found either on Plaintiff ’s person or in her vehicles. (See
Search and Seizure Warrant, Ex. 4 to MSJ, ECF No.
25-4). Regardless of whether the warrant was executed, it was determined that probable cause for the
search existed, and all that is necessary for a strip
search of Plaintiff was the lesser standard of reasonable suspicion. Accordingly, Defendants are entitled to
summary judgment on Plaintiff ’s third cause of action.
2. Fourth Cause of Action – Plaintiff ’s Detainment
Plaintiff ’s fourth cause of action alleges that she
was unlawfully detained while Emling searched her
vehicle out of her view and without her express consent. (Am. Compl. ¶ 65). Defendants argue they are
entitled to judgment as a matter of law on Plaintiff ’s
fourth cause of action because Plaintiff consented to
the search of her vehicle, and the search was reasonable because it was based on the legitimate governmental interest in keeping contraband out of the prison.
(MSJ 8:10–9:6). Additionally, Defendants assert that
they are entitled to qualiﬁed immunity. (Id. 22:22).
In response, Plaintiff states that she “concedes
that she consented to the possible search of her vehicle
in signing the [consent to search] form on the morning
of February 19,2017. [Plaintiff ] contends she did not,
however, consent to being detained and prevented
from viewing the possible search of her vehicle.” (Resp.
10:17–21). Plaintiff cites to rule AR 422 which states

40a
“any search of the personal property of staff, inmate, or
visitor must be done in their presence unless security
concerns or circumstances dictate otherwise.” (Id.
10:24–27).
As Plaintiff concedes that she consented to the
search of her vehicle, there is no genuine dispute of material fact that the search of her vehicle was reasonable
under the Fourth Amendment. In regard to Plaintiff ’s
argument that she was detained in violation of the
Fourth Amendment, the Court ﬁnds that qualiﬁed immunity applies. At issue is whether an ofﬁcer would
know that detaining Plaintiff for a period of time while
a search of her property was performed would have
violated her right to be free from unreasonable search
and seizure.
The Court agrees with Defendants that “Plaintiff
failed to provide this Court with any case that would
have put Defendants on ‘clear notice’ that their actions
in this case violated Plaintiff ’s constitutional rights.”
(Reply 15:3–4, ECF No. 29); see Moran v. State of Washington, 147 F.3d 839,844 (9th Cir. 1998) (plaintiff
“bears the burden of proving that the rights she
claims were ‘clearly established’ at the time of the alleged violation”). Further, “the allowable length of the
detention is not clearly established.” Jones v. California Dep’t of Corr., No. 1:08-cv-01383-LJO, 2011 WL
902103, at *6 (E.D. Cal. Mar. 15, 2011), subsequently
aff ’d, 473 F. App’x 741 (9th Cir. 2012) (ﬁnding that
qualiﬁed immunity applied when an ofﬁcer detained a
plaintiff for more than ﬁfteen minutes in order to question the plaintiff and conduct a search of her property

41a
upon her entry into the prison). Because Plaintiff fails
to present the Court with caselaw that would give
Defendants notice that detaining Plaintiff while she
waited for her property to be searched would violate
Plaintiff ’s constitutional rights, Defendants are entitled to qualiﬁed immunity. Accordingly, the Court
grants summary judgment as to Plaintiff ’s fourth
cause of action.
3. Fifth Cause of Action – Seizure of Plaintiff ’s Phone
Plaintiff ’s ﬁfth cause of action alleges that an unreasonable search and seizure occurred when Emling
seized Plaintiff ’s phone from her vehicle with no lawful
purpose. (Am. Compl. ¶69). Defendants argue that
“[n]one of the [D]efendants searched Plaintiff ’s phone;
thus, an illegal search could not have occurred.” (MSJ
10:15–16). Defendants contend that “bringing Plaintiff
her phone and asking to search it is not a meaningful
interference with Plaintiff ’s possessory interests in the
phone, as Defendants had every right to ask to search
the phone, and no unreasonable seizure occurred.” (Id.
10:16–19). Additionally, Defendants argue that qualiﬁed immunity applies because Plaintiff is unable to
provide caselaw that put Defendants on notice that
their actions violated the Constitution. (Id. 22:15–17).
Plaintiff argues that the “seizure of [Plaintiff ’s]
phone by Defendant Emling was totally unreasonable
under the circumstances” because it “interfered with
her ownership and possessory interest in the phone

42a
and triggered a refusal by [Plaintiff ] to give him her
password.” (Resp. 15:9–16). Additionally, Plaintiff cites
to Riley v. California, 134 S. Ct. 2473 (2014) and United
States v. Lara, 815 F.3d 605, 613 (9th Cir. 2016) claiming that “[t]he law was clearly established at the time
of the events giving rise to this case, of which a reasonable ofﬁcial would have known, that absent consent,
reasonable suspicion, and/or probable cause, that a
warrantless seizure and/or search of an individual’s
cell phone for purposes of searching or viewing stored
data violates the 4th Amendment.” (Id. 29:5–11).
“Qualiﬁed immunity attaches when an ofﬁcial’s
conduct does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.” Kisela v. Hughes, 138 S. Ct. 1148,
1152 (2018) (quoting White v. Pauly, 137 S. Ct. 548, 551
(2017)). “Because the focus is on whether the ofﬁcer
had fair notice that her conduct was unlawful, reasonableness is judged against the backdrop of the law at
the time of the conduct.” Id. (citation omitted). While
this analysis does not require a case directly on point
for a right to be clearly established, “existing precedent
must have placed the statutory or constitutional question beyond debate.” Ashcroft v. al-Kidd, 563 U.S. 731,
741 (2011). In White, the Supreme Court reiterated
that “clearly established law” should not be “deﬁned at
a high level of generality,” but rather must be “particularized to the facts of the case.” White, 137 S. Ct. at
552. (internal quotation marks omitted). Before denying qualiﬁed immunity, the Court must “identify a case
where an ofﬁcer acting under similar circumstances

43a
. . . was held to have violated the Fourth Amendment.”
Estate of Lopez, 871 F.3d at 1018 (quoting White, 137
S. Ct. at 552). A plaintiff carries the burden of proving
the right was clearly established at the time of the violation. Estate of Lopez, 871 F.3d at 102 (citing Sorrels
v. McKee, 290 F.3d 965, 969 (9th Cir. 2002)). If a plaintiff successfully shows the right was clearly established, the burden shifts to the defendant who must
show the ofﬁcial reasonably believed the conduct was
lawful. Id.
Here, Plaintiff has provided no authority to clearly
establish that Emling would have known that the seizure of Plaintiff ’s phone when he took it from Plaintiff ’s vehicle to her person was a violation of Plaintiff ’s
constitutional rights. In Lara, the ﬁrst case cited by
Plaintiff, the Ninth Circuit analyzed the warrantless
search of a defendant’s phone by probation ofﬁcers, it
did not analyze the physical seizure of the phone itself.
See United States v. Lara, 815 F.3d 605,614 (9th Cir.
2016) (“We conclude that the initial search of Lara’s
cell phone data was unlawful and . . . Because the second search of Lara’s cell phone was itself the product
of the initial unlawful search, the evidence from that
search should also have been excluded.”). Similarly, in
the second case cited by Plaintiff the Supreme Court
analyzed “whether the police may, without a warrant,
search digital information on a cell phone seized from
an individual who has been arrested.” Riley, 134 S. Ct.
at 2480. Plaintiff has not identiﬁed a case that is particular to the facts of this case involving a brief seizure
of a phone, the contents of which were not searched,

44a
that was returned to Plaintiff. Consequently, Plaintiff
has not successfully shown it was clearly established
that a seizure under the undisputed facts in this case
was unreasonable under the Fourth Amendment. Accordingly, Plaintiff has failed to meet her burden of
proving that Defendants were on fair notice that their
conduct was unlawful, and thus, qualiﬁed immunity
applies.
B. Eighth Amendment Claim
Plaintiff avers that her right to be free from cruel
and unusual punishment was violated when Laurian
required her to remove her menstrual tampon and
failed to provide a new one, which caused Plaintiff the
embarrassment of bleeding through her clothes until
she arrived home an hour later. (see Am. Compl. ¶¶ 55–
57, ECF No. 18). Defendants argue that they are entitled to judgment as a matter of law on Plaintiff ’s second cause of action asserting “[i]t is well established
that the Eighth Amendment does not apply to Plaintiff
in this case because she is not a convicted prisoner.”
(Id. 11:20–22). In her Response, Plaintiff requests that
the Court “convert or treat [Plaintiff ’s] 8th Amendment claim in her Second Cause of Action as a 14th
Amendment due process claim and deny Defendants
summary judgment on said claim.” (Id. 16:19–21).
“Eighth Amendment scrutiny is appropriate only
after the State has complied with the constitutional
guarantees traditionally associated with criminal
prosecutions.” City of Revere v. Massachusetts Gen.

45a
Hosp., 463 U.S. 239, 244 (1983) (citation omitted).
“[T]he State does not acquire the power to punish with
which the Eighth Amendment is concerned until after
it has secured a formal adjudication of guilt in accordance with due process of law.” Id.; see Bell v. Wolﬁsh,
441 U.S. 520, 535 n. 16 (1979) (“Where the State seeks
to impose punishment without such an adjudication,
the pertinent constitutional guarantee is the Due Process Clause of the Fourteenth Amendment.”).
The Court agrees with Defendants that the Eighth
Amendment does not apply in this case because Plaintiff is not a convicted prisoner. Furthermore, the Court
declines to convert Plaintiff ’s second cause of action
into a Fourteenth Amendment Due Process claim. See
Beckwith v. Pool, No. 2:13-cv-125 JCM NJK, 2015 WL
1988788, at *6 (D. Nev. May 1, 2015), aff ’d sub nom.
Beckwith v. City of Henderson, 687 F. App’x 665 (9th
Cir. 2017) (“Federal Rule of Civil Procedure 8(a) . . .
does not afford plaintiffs with an opportunity to raise
new claims at the summary judgment stage . . . A
plaintiff may not amend her complaint through argument in a brief opposing summary judgment.”
(quotation and citation omitted)). For these reasons,
Plaintiff ’s second cause of action is factually unsupported, and the Court ﬁnds that there is no genuine
dispute as to any material fact. Accordingly, summary
judgment is granted as to Plaintiff ’s second cause of
action.

46a
C. First Amendment Cause of Action
Defendants seek summary judgment on Plaintiff ’s
sixth cause of action claiming she was retaliated
against under the First Amendment when Emling allegedly denied Plaintiff visiting privileges because she
refused to allow him to search the information on her
phone. (MSJ 13:9–10); (Am. Compl. ¶ 73). Defendants
claim that “Plaintiff ’s visitation would have been denied despite her refusal to grant access to her phone,
based on the conﬁdential information received and the
prison’s legitimate correctional goal of preventing the
introduction of contraband into the facility.” (Reply
9:15–17).
Plaintiff argues that “the routine [consent to
search] form signed by [Plaintiff ] in no way required
[Plaintiff ] to consent to give her password to prison ofﬁcials so that they might search the contents or data
of her phone.” (Resp. 17:7–9). Further, Plaintiff contends that she has a First Amendment right “to not relay the password to her phone to Defendant Emling
under the circumstances of this case, and to be free
from any adverse action for electing not to do so, [thus,]
Defendants are not entitled to summary judgment on
[Plaintiff ’s] retaliation claim in her Sixth Cause of Action.” (Id. 18:4–8).
The Court looks to the elements of a viable claim
of First Amendment retaliation in the prison context:
(1) an assertion that a state actor took some adverse
action against an inmate (2) because of (3) that prisoner’s protected conduct, and that such action (4) chilled

47a
the inmate’s exercise of his First Amendment rights,
and (5) the action did not reasonably advance a legitimate correctional goal. Brodheim v. Cry, 584 F.3d 1262,
1269 (9th Cir. 2009) (citing Rhodes v. Robinson, 408
F.3d 559, 568 (9th Cir. 2005)). The instant matter involves a prison visitor, however, the need for motive to
retaliate against the plaintiff still applies. See Arizona
Students’ Ass’n v. Arizona Bd. of Regents, 824 F.3d 858,
867 (9th Cir. 2016) (explaining that an element of retaliation for a non-prisoner plaintiff is that “the protected activity was a substantial motivating factor in
the defendant’s conduct—i.e., that there was a nexus
between the defendant’s actions and an intent to chill
speech”).
Here, Defendants present two pieces of evidence to
show that Emling’s adverse action was not caused by
Plaintiff ’s choice to deny the search of her phone. First,
Defendants provide the consent to search form signed
by Plaintiff that states that “if [Plaintiff does] not consent to the search of [her] person, vehicle, or other
property, [she] will be denied visitation on this date
and may also be denied future visits pursuant to Administrative Regulation 719.” (Consent to Search
Form, Ex. 1 to MSJ). Second, Defendants provide Emling’s responses to interrogatories, in which he explains that even though no contraband was found
during the search, the conspiracy to introduce drugs
into the prison “is enough for an indeﬁnite suspension.”
(Emling’s Resp. to Pl.’s Interrog. 8:10–11, Ex. 5 to
MSJ). Further, Emling explained his concern that
Plaintiff “may have gotten cold feet, something went

48a
wrong leading up to [the prison visit], etc. or the drugs
may have been so far up in either one of her oriﬁces
that Laurian may have not detected it without a more
intrusive search – i.e x-ray, doctors, etc.” (Id. 8:11–14).
Regardless of whether the consent to search form
extended to the information on Plaintiff ’s phone, it is
likely that the execution of the form itself and the language in the form led Emling to believe that Plaintiff ’s
refusal of any search of her property would warrant
the termination of a visit. Therefore, the existence of
the consent to search form gave Emling a reason to
commit the adverse action apart from retaliating or
purposefully intending to chill Plaintiff ’s speech. Furthermore, Emling’s responses to the interrogatories
that he believed Plaintiff still presented a threat to the
safety of the prison is evidence that breaks the causal
chain between Plaintiff ’s refusal of the search and her
loss of visitation privileges.
In light of Defendants’ evidence, Plaintiff ’s conclusory statement that “Emling had not demonstrated an
intent to deny [Plaintiff ’s] visitation until after she
exercised her 1st Amendment right to retain the password to the contents of her phone” does not withstand
Defendants’ Motion for Summary Judgment. (Resp.
17:22–26). Plaintiff has not come forth with sufﬁcient
evidence that Emling took this action without a legitimate correctional goal, or that Plaintiff ’s refusal of the
search was the substantial motivating factor to deny
her visitation. The Court ﬁnds that Plaintiff has failed
to present evidence of retaliatory motive. Paulino v.
Todd, 338 F. App’x 720,722 (9th Cir. 2009).

49a
Because Plaintiff has failed to present evidence to
establish that her refusal of the search of her phone
was the causative factor resulting in the loss of her visitation privileges, the Court grants summary judgment on Plaintiff ’s sixth cause of action. See Brodheim,
584 F.3d at 1269 n. 3. (“On summary judgment, the
plaintiff must demonstrate there is a triable issue of
material fact on each element of his claim, as opposed
to merely alleging facts sufﬁcient to state a claim.”); see
also Wright v. Vitale, 937 F.2d 604 (4th Cir. 1991).
D. Fourteenth Amendment Causes of Action
1. Due Process
i. First cause of Action
Defendants argue that Plaintiff ’s due process
rights were not violated when Defendants failed to
provide Plaintiff a copy of the search warrant because
Plaintiff signed a consent to search form and orally
consented to the search. (MSJ 13:22–14:4). Plaintiff
argues that she did not consent to the strip search,
that “it clearly appears [as though] Defendants fully
executed the terms of the search warrant against
[Plaintiff ],” and that Emling “chose to falsely inform or
mislead the judge upon the Return [of the warrant] by
stating that the search warrant had not been executed”
rather than admit his search for illegal drugs was unsuccessful. (Resp. 18:26–27,19:11–20). Defendants reply that “Plaintiff is unable to demonstrate that the
search warrant was executed, requiring Defendants to
provide her with a copy.” (Reply 29:15–16).

50a
The Court agrees with Defendants that there is no
dispute of material fact as to whether the search warrant was returned unexecuted. (See Emling’s Resp. to
Pl.’s Interrog. 5:19–22, Ex. 5 to MSJ, ECF No. 25-5)
(“the search warrant was not executed on [Plaintiff ]
because she was consenting and cooperative regarding
all the searches”); (see also Return on Search Warrant,
Ex. 6 to Resp., ECF No. 27) (“no property was seized as
the warrant was not executed”). Plaintiff provides only
assumptions and the conclusion that Emling would
have executed the warrant if he had found contraband.
See Taylor v. List, 880 F.2d 1040, 1045 (9th Cir. 1989)
(explaining that the nonmoving party cannot avoid
summary judgment by relying solely on conclusory allegations that are unsupported by factual data). Further, Plaintiff provides no authority establishing that
Defendants are required to give notice of the terms and
parameters of the search warrant when a search is
conducted and the search warrant is returned unexecuted. Thus, Plaintiff has failed to demonstrate that
Defendants were required to serve Plaintiff a copy of
an unexecuted search warrant. Accordingly, summary
judgment in favor of Defendants is granted as to Plaintiff ’s ﬁrst cause of action.
ii. Seventh Cause of Action
Defendants argue that summary judgment is appropriate on Plaintiff ’s seventh cause of action alleging that she was denied due process when she was not
given a clear reason for the suspension of her visitation, when she was not provided instructions on how to

51a
appeal the suspension, and as a result the Warden
abused his discretion. (MSJ 16:1–2). Defendants claim
that “Plaintiff cannot point to any administrative regulations that make her believe that she has a liberty
interest in visiting Danial [sic] Gonzalez,” and that
“[t]he right to visit a prisoner is in the sound discretion
of the NDOC.” (Id. 15:22–27).
Plaintiff contends “she had a protected liberty interest in her NDOC visiting privileges once she had
been approved,” and that “NDOC regulations do not allow for arbitrary suspension or termination of visitors’
visiting privileges, and such suspension or termination
must meet certain procedural requirements.” (Resp.
20:15–17, 20:21–23). Plaintiff argues that the documentation she received regarding her suspension or
termination did not meet the requirements of AR 719,
and is therefore, “an abuse of ofﬁcial discretion in violation of [Plaintiff ’s] due process rights.” (Id. 21:9–11,
21:20–21).
“The denial of prison access to a particular visitor
‘is well within the terms of conﬁnement ordinarily contemplated by a prison sentence, and therefore is not
independently protected by the Due Process Clause.”
Kentucky Dep’t of Corr. v. Thompson, 490 U.S. 454, 461,
(1989) (quoting Hewitt v. Helms, 459 U.S. 460, 468,
(1983)). “[P]risoners do not have an absolute right to
visitation, as such privileges are necessarily subject to
the prison authorities’ discretion, provided their administrative decisions are tied to legitimate penological objectives.” Dunn v. Castro, 621 F.3d 1196, 1205
(9th Cir. 2010). “Whether any procedural protections

52a
under the Fourteenth Amendment are due depends on
the existence of a liberty interest and the extent to
which an individual has suffered a grievous loss of liberty, even taking into account the nature of imprisonment.” Egberto v. McDaniel, No. 3:08-cv-00312-HDM,
2011 WL 1233358, at *8 (D. Nev. Mar. 28, 2011), aff ’d,
565 F. App’x 663 (9th Cir. 2014). “Certain prison regulations may create liberty interests protected by the
Fourteenth Amendment. [ ] However, most prison regulations are designed to guide prison ofﬁcials in the
administration of the prison, not confer rights on inmates.” Id. (internal citation omitted).
Here, Plaintiff does not provide any legal authority to support her conclusion that she has a protected
interest in her visiting privileges once she was approved. Additionally, Plaintiff does not point to any
substantive predicates or mandatory language in the
NDOC administrative regulations that would remove
a prison ofﬁcial’s ability to make discretionary decisions regarding prison visitation policies and create a
liberty interest in prison visiting privileges. Further,
Plaintiff has failed to demonstrate that the language
requiring speciﬁc documentation and instructions for
appeal of visitation suspension in AR 719 conferred a
right to the documentation as opposed to the regulation functioning as a guideline for prison officials.
(See AR 719 ¶ 7(d) at 11, Ex. 2 to Resp.) (stating that
suspension documentation shall include the name of
the ofﬁcial ordering the action, shall explain the reason
for the action, the length of time it applies, circumstances that allow reconsideration, and instructions

53a
for appeal). Therefore, Plaintiff has not shown that the
regulation at issue establishes a liberty interest entitled to the protections of the Due Process Clause.
Additionally, Defendants have provided evidence
that the administrative decision to suspend visitation
was tied to a legitimate penological objective. Specifically, Defendants have provided a search warrant
demonstrating that probable cause to believe that
Plaintiff would introduce illegal substances into the
prison existed, and pursuant to AR 719 possible suspension offenses include possession of contraband.
(See AR 719 ¶ 7(c) at 11, Ex. 2 to Resp., ECF No. 27).
Because Plaintiff posed a reasonable risk of introducing contraband into the prison, a penological reason to
terminate visitation existed regardless of whether contraband was found during the search. (See Williams’
Resp. to Pl.’s Interrog. 5:16–17, Ex. 7 to MSJ, ECF No.
25-7) (“We do not actually have to ﬁnd contraband to
suspend a visitor’s visitation privileges. The safety and
security of this institution comes ﬁrst.”). Apart from
identifying AR 719, Plaintiff has failed to demonstrate
a genuine issue of material fact. Furthermore, Plaintiff
does not argue, under the qualiﬁed immunity analysis,
that it is clearly established that the conduct of failing
to provide a reason for suspension, failing to provide
instructions for appeal, and making the duration of the
suspension indeﬁnite was unlawful. Accordingly, summary judgment on Plaintiff ’s seventh cause of action
is appropriate.

54a
iii. Eighth Cause of Action
Defendants seek summary judgment on Plaintiff ’s
eighth cause of action alleging that Defendants violated her right to due process by abusing their discretion in upholding and maintaining the indeﬁnite
termination or suspension of Plaintiff ’s visiting privileges without just cause. Defendants argue that “Plaintiff ’s visiting privileges were suspended, and the
suspension upheld, due to the conﬁdential information
received implicating Plaintiff in the introduction of
contraband into the prison.” (Reply 11:25–28). Speciﬁcally, Defendants argue that the indeﬁnite suspension
resulted from “[c]onﬁdential information received regarding her introducing contraband into the facility
and her failure to cooperate with [the Inspector General’s] ofﬁce regarding searches.” (MSJ 17:1–3). Additionally, Defendants contend that “Defendant Williams
‘conducted a review of the suspension’ and found the
‘suspension is still warranted based on conﬁdential information received, which determined [Plaintiff ] jeopardizes the safety and security of the NDOC.’ ” (Id.
17:4–7).
Plaintiff argues that “Defendants Williams and
Dzurenda upheld the arbitrary suspension/termination
of [Plaintiff ’s] NDOC visiting privileges by Defendant
Stroud with full knowledge that [Plaintiff ] had not
been afforded the procedural requirements of AR 719.”
(Resp. 22:4–8). Therefore, Plaintiff claims that “the
actions of the Defendants Williams and Dzurenda in
upholding the suspension/termination of [Plaintiff ’s]
NDOC visiting privileges were totally arbitrary and an

55a
abuse of ofﬁcial discretion in violation of [Plaintiff ’s]
due process rights.” (Id. 22:9–11).
Plaintiff does not dispute that Defendants received conﬁdential information regarding her introducing contraband into the prison. Plaintiff instead
claims that the suspension was arbitrary and an abuse
of discretion without providing evidence that visitation
was terminated without just cause. Plaintiff points to
the letter she received from Defendants which does not
provide a reason for her suspension, however she does
not provide evidence to dispute the interrogatory responses explaining that Plaintiff ’s suspension was implemented in the interest of ensuring the safety and
security of the institution. (See Williams’ Resp. to Pl.’s
Interrog. 5:16–17, Ex. 7 to MSJ). Therefore, the facts
alleged in this case do not reveal that the restriction
on Plaintiff ’s visitation privileges was imposed arbitrarily or irrationally.
Additionally, Plaintiff has provided no legal authority to persuade the Court that she has a legitimate
liberty interest in visitation, thus her due process
rights were not violated as a result of the suspension.
See Kentucky Dept. of Corr. v. Thompson, 490 U.S.
454,461 (1989) (“The denial of prison access to a particular visitor is well within the terms of conﬁnement
ordinarily contemplated by a prison sentence, and
therefore is not independently protected by the Due
Process Clause.”). Alternatively, even if Plaintiff suffered a due process violation, Defendants are immune.
Given the confidential information Defendants received, they “could have believed [their] actions lawful

56a
at the time they were undertaken,” and therefore Defendants are entitled to qualiﬁed immunity. Friedman
v. Boucher, 580 F.3d 847, 858 (9th Cir. 2009). Accordingly, Defendants’ request for summary judgment on
Plaintiff ’s eighth cause of action is granted.
2. Equal Protection
In Plaintiff ’s ninth cause of action she asserts a
class of one theory of equal protection alleging that
Defendants “indeﬁnitely terminated, and/or upheld or
maintained the indeﬁnite termination, of [Plaintiff ’s]
visiting privileges while allowing others similarly situated visitors to maintain [their visiting privileges].”
(Am. Compl. ¶ 86). Defendants assert they “had a
valid, rational response to preventing the introduction
of drugs and contraband to the prison. Accordingly,
there are no genuine issues of material fact related to
Plaintiff ’s Ninth Cause of Action, and Defendants are
entitled to judgment as a matter of law.” (MSJ 18:20–
23).
“The Equal Protection Clause of the Fourteenth
Amendment commands that no State shall ‘deny to
any person within its jurisdiction the equal protection
of the laws,’ which is essentially a direction that all
persons similarly situated should be treated alike.”
City of Cleburne v. Cleburne Living Or., 473 U.S. 432,
439 (1985) (citing Plyler v. Doe, 457 U.S. 202, 216
(1982)). “[T]o state an equal protection claim, plaintiffs
must show they were intentionally and purposefully
‘treated differently [by the defendants] . . . because

57a
[they] belonged to a protected class.’ ” Egberto, 2011
WL 1233358, at *12 (quoting Hill v. Washington State
Dep’t of Corr., 628 F. Supp. 2d 1250, 1263 (W.D. Wash.
2009)). “Showing that different persons are treated differently is not enough to show a violation of equal protection.” Id.
Here, Plaintiff has not shown that she is a member
of a protected class. Further, Plaintiff has presented insufﬁcient evidence that she has been intentionally
treated differently from similarly situated visitors. In
her Response, Plaintiff makes conclusory statements
that other unidentiﬁed visitors retain their visitation
privileges after they are searched and no contraband
is found. However, Plaintiff has not presented evidence
that (1) these other visitors were implicated in introducing contraband through conﬁdential information,
or (2) that these other visitors had search warrants issued establishing that probable cause existed that
they would introduce contraband into the prison.
Plaintiff ’s conclusory statement that she was treated
differently is not enough to show a violation of the
Equal Protection Clause.
Additionally, as evidenced by the search warrant,
Defendants’ indeﬁnite suspension of Plaintiff ’s visitation was a rational response to the perceived threat of
the introduction of contraband into the prison. See
Robinson v. Palmer, 841 F.2d 1151, 1156–57 (D.C. Cir.
1988) (holding that the permanent denial of face-toface communications between inmate and his wife was
not an “exaggerated response” to the perceived threat
of visitors introducing drugs into the prison); see also

58a
Egberto, 2011 WL 1233358, at *12 (“Where a ‘plaintiff
does not allege a violation of a fundamental right or
the existence of a suspect classiﬁcation, prison ofﬁcials
need only show that their policies bear a rational relationship to a legitimate penological interest in order to
satisfy the equal protection clause.’ ”) (quoting Daniel
v. Rolfs, 29 F. Supp. 2d 1184, 1188 (E.D. Wash. 1998)).
Accordingly, Defendants are entitled to judgment as a
matter of law on Plaintiff ’s ninth cause of action because there is no genuine dispute as to any material
fact.
IV. CONCLUSION
IT IS HEREBY ORDERED that Defendants’
Motion for Summary Judgment, (ECF No. 25), is
GRANTED.
The Clerk of the Court shall enter judgment accordingly.
DATED this 24 day of September, 2018.
/s/ Gloria M. Navarro
Gloria M. Navarro,
Chief Judge
United States District Court

59a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
TINA CATES,
Plaintiff-Appellant,
v.
BRUCE D. STROUD;
BRIAN WILLIAMS, Sr.;
JAMES DZURENDA;
ARTHUR EMLING, Jr.;
MYRA LAURIAN,

No. 18-17026
D.C. No. 2:17-cv01080-GMN-PAL
District of Nevada,
Las Vegas
ORDER
(Filed Nov. 13, 2020)

Defendants-Appellees.
Before: W. FLETCHER, BYBEE, and WATFORD,
Circuit Judges.
Plaintiff-Appellant Tina Cates ﬁled a petition for
panel rehearing with a suggestion for rehearing en
banc on October 8, 2020 (Mt. Entry 38). The panel has
voted to deny the petition for rehearing. Judges W.
Fletcher and Watford have voted to deny the petition
for rehearing en banc, and Judge Bybee so recommends.
The full court has been advised of the petition for
rehearing en banc, and no judge of the court has requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.

60a
The petition for panel rehearing or rehearing en
banc is DENIED.

